2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-794
DANIEL MACIAS and MICHAEL FOSTER,
Petitioners,
vs.
RAYMOND NICHOLS and DANIEL NICHOLS,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of March, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY TO BRIEF IN OPPOSITION in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
TIMOTHY T. COATES
ALANA H. ROTTER
Counsel of Record
GREINES, MARTIN, STEIN &
RICHLAND LLP
5900 Wilshire Boulevard,
12th Floor
Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
E-mail: tcoates@gmsr.com /
arotter@gmsr.com

Counsel for Petitioners
Daniel Macias and Michael Foster

OFFICE OF THE CITY ATTORNEY
CITY OF RIVERSIDE
GARY GEUSS, City Attorney
NEIL OKAZAKI, Assistant
City Attorney
3750 University Avenue,
Suite 250
Riverside, California 92501
Telephone: (951) 826-5180
Facsimile: (951) 826-5540
E-mail:
nokazaki@riversideca.gov
SMITH LAW OFFICES
DOUGLAS C. SMITH
CHRISTOPHER ROMERO
4204 Riverwalk Parkway,
Suite 250
Riverside, California 92505
Telephone: (951) 509-1355
Facsimile: (951) 509-1356
E-mail: dsmith@smithlaw.com /
cromero@smithlaw.com

Subscribed and sworn to before me this 23rd day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

39639

SERVICE LIST
Jerry L. Steering, Esq.
jerrysteering@yahoo.com
Brenton Whitney Aitken Hands, Esq.
brentonaitken@gmail.com
Law Office of Jerry L. Steering
4063 Birch Street, Suite 100
Newport Beach, CA 92660-2239
Telephone: (949) 474-1849
Attorneys for Respondents
RAYMOND NICHOLS and DANIEL NICHOLS

